                                               U.S. Department of Justice



                                               United States Attorney
                                               Eastern District of Michigan

                                               211 W. Fort Street
                                               Suite 2001
                                               Detroit, Michigan 48226
                                               August 29, 2005

CONTACT: Gina Balaya - USAO (313) 226-9758
         Dawn Clenney - FBI (313) 237-4206

FOR IMMEDIATE RELEASE
Detroit, Michigan

                  TWO FORMER EMPLOYEES OF THE MICHIGAN
             SECRETARY OF STATE’S OFFICE AND ANOTHER INDIVIDUAL
                  CHARGED WITH IDENTITY DOCUMENT FRAUD

        Two former employees of the Michigan Secretary of State’s office and another individual
have been charged in criminal complaints with issuing fraudulent driver’s licenses and
identification documents announced United States Attorney Stephen J. Murphy. U.S. Attorney
Murphy was joined in the announcement by Special Agent in Charge Daniel D. Roberts,
Federal Bureau of Investigation (FBI), Special Agent in Charge Brian Moskowitz, Immigration
and Customs Enforcement (ICE), Special Agent in Charge Michelle McVicker, Department of
Transportation Office of Inspector General (DOT-OIG), Dennis MacDonnell, Michigan
Secretary of State, Office of Investigation, and the Michigan State Police.

        Charged are REGJEAN WELCH (formerly Regjean Harris), age 26, of Detroit,
Michigan, KIMBERLY MURRAY, age 31, of Detroit, Michigan, and ANDRE DONALDSON, age
34 of Detroit, Michigan. The arrests of WELCH, MURRAY and DONALDSON are part of a
nationwide initiative aimed at cracking down on corruption relating to the issuance of
identification documents.
        The affidavit in support of the complaint alleges that WELCH, who was employed at the
Newburgh Road, Livonia branch of the Secretary of State, and MURRAY, who was employed
at the Washington Boulevard, Detroit branch of the Secretary of State, issued operator’s
licenses and personal identification cards to individuals in alias names, for a fee ranging from
three hundred to eleven hundred dollars. The individuals were directed to the branch offices of
WELCH or MURRAY and would approach their counters at which time WELCH or MURRAY
would process the requests for alias identification documents without requiring the individuals
to produce valid proof of their identities. Once the applications were completed, the fraudulent
identification documents would be sent, through the mail, to the individuals. DONALDSON is
alleged to have referred at least four or five people to WELCH for the purpose of assisting
these individuals with obtaining fraudulent identification documents.

       Normally, an applicant for a Michigan operator’s license or personal identification card
must prove his or her identity and residence by presenting certain specified documents to a
Secretary of State clerk, such as the applicant’s birth certificate, passport or utility bills. To
obtain an operator’s license, the applicant must also pass knowledge and road skills test,
complete practice on a temporary instruction permit and pay a $25 fee.

        As stated in the affidavits in support of the complaints, some of the individuals who
received identification documents in alias names did so because of poor driving records, bad
credit, or pending criminal charges.

      A conviction of this offense carries a maximum penalty of 15 years in prison or a
$250,000 fine, or both. Any sentence will ultimately be imposed by the court with advisory
guidance from the United States Sentence Guidelines, according to the nature of the offense
and the criminal background, if any, of the defendant.

      All three defendants appeared in federal court this afternoon and were released on
unsecured bonds. Their next court appearance is a preliminary examination set for September
19, 2005.

       A complaint is only a charge and is not evidence of guilt. Trial cannot be held on felony
charges in a complaint. When the investigation is completed a determination will be made
whether to seek a felony indictment. This case is being investigated by the Federal Bureau of
Investigation, Immigration and Customs Enforcement, the Department of Transportation, Office
of Inspector General, the Michigan Secretary of State, Office of Investigation, and the Michigan
State Police.
